<html>
<title> - STATE-OF-THE-ART IT SOLUTIONS FOR VA BENEFITS DELIVERY</title>
<body><pre>[Senate Hearing 111-174]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-174
 
         STATE-OF-THE-ART IT SOLUTIONS FOR VA BENEFITS DELIVERY 

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-437 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 















                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania \1\
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



----------
\1\ Hon. Arlen Specter was recognized as a majority Member on May 5, 
2009.
     
      
     




























                             C O N T E N T S

                              ----------                              

                             March 25, 2009
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Burris, Hon. Roland W., U.S. Senator from Illinois...............     4

                               WITNESSES

Warren, Stephen W., Acting Assistant Secretary, Office of 
  Information and Technology, U.S. Department of Veterans Affairs     5
    Prepared statement...........................................     6
Wilson, Keith M., Director, Education Service, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............     9
    Prepared statement...........................................    11
Graves, Kim A., Director, Office of Business Process Integration, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs........................................................    22
    Prepared statement...........................................    23
Gaydos, Scott A., Applications Services Executive, EDS, an HP 
  Company........................................................    26
    Prepared statement...........................................    27


         STATE-OF-THE-ART IT SOLUTIONS FOR VA BENEFITS DELIVERY

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
Room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Burris, and Burr.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing of the Senate Veterans' 
Affairs Committee will come to order.
    Aloha and welcome to today's hearing. This morning we hope 
to learn more about VA's use of information technology to 
improve the delivery of benefits to veterans. VA has invested 
significant resources over the years in developing IT solutions 
to modernize how it does business. Unfortunately, the return on 
our investment has been mixed. This Committee has held a number 
of hearings on a variety of IT subjects, and stepped up 
oversight of VA-IT initiatives.
    The current Administration has made it a priority, 
embracing new technology to improve the delivery of benefits. 
This, along with VA's move to reorganize IT, gives me hope that 
we will finally see significant improvements. One focus this 
morning is the use of IT in VA's implementation of the new 
Post-9/11 GI Bill. Failure simply is not an option with this 
program. When VA flips the switch on August 1, 2009, to 
implement the new Post-9/11 GI Bill, all manual and IT systems 
must be in place and properly functioning so that eligible 
recipients get their checks on time.
    At last month's budget hearing, Secretary Shinseki 
identified eight high-risk areas related to the implementation 
of the new program. I want to learn more about VA's efforts to 
address those problems.
    The Committee would also benefit from hearing about VA's 
other IT initiatives, including paperless processing and the 
use of rules-based technology for more consistent and timely 
adjudication of claims.
    We have done a great deal of work on disability 
compensation. However, timely and accurate processing of 
disability claims remains a problem. Hiring and training more 
claims adjudicators is important, but this will only take us so 
far. The Department must continue to work toward improving the 
claims adjudication process.
    The results of VA's Claims Processing Improvement Study 
support the Administration's commitment to improve the delivery 
of benefits through investing in better technology. I look 
forward to hearing about the details of VBA's Paperless 
Delivery of Benefits Initiative and how it will improve 
services for veterans.
    The processes we are looking at this morning are complex 
and the solutions are equally as complicated. IT can be a part 
of the solution, but it is not an end in itself.
    I again welcome everyone to today's hearing and look 
forward to hearing the testimony of our witnesses.
    I'd like--before I call on our Ranking Member--to tell you 
that the lead staffer on this hearing today is Ted Pusey; and 
it is with mixed emotion that I announce that Ted is leaving 
the Committee.
    Fortunately for all of us, Ted is not going far. He will be 
working as Deputy Director of the Office of VA/DOD 
Collaboration at the Department of Veterans Affairs. This is 
obviously a great fit for Ted since he has been my mainstay on 
all VA/DOD issues here on the Committee as we sought to ensure 
a seamless transition for our newest veterans. And Ted has much 
to be proud of.
    Ted and I have covered many miles together over the years. 
Last fall alone we toured nearly a dozen VA and DOD facilities 
together, including polytrauma centers, cemeteries, regional 
offices and clinics and hospitals. My focus with Ted's help was 
to listen to employees and managers to determine if they had 
the resources to do their jobs. And we looked at technology to 
improve the delivery of benefits and services.
    Ted, I hope you don't mind that I will continue to work 
with you on our shared quest for improved VA/DOD cooperation 
and collaboration. After all, you are part of 'ohana--our 
family.
    So thank you Ted. Just stand up and say aloha. [Applause.]
    Now I would like to call on our Ranking Member for his 
opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you Mr. Chairman and my congratulations 
to Ted as well. It's hard to believe you are only 32 years old. 
The Chairman has aged you very quickly.
    Aloha, Mr. Chairman. Welcome. And I welcome our panel 
today.
    One of the Department of Veterans Affairs' most important 
missions is to provide timely and appropriate benefits to 
veterans and their families. Yet, for far too long, the VA's 
claims processing system has been challenged by large backlogs 
and long delays.
    We are well aware of what these challenges mean for 
veterans back home, regardless of the State we come from. In 
North Carolina I frequently hear how frustrated veterans are 
with the long, confusing process.
    Over the years, a patchwork approach has been tried to 
improve the claims processing system, and yet the problems and 
frustrations continue. I believe that more fundamental changes 
are necessary, and state-of-the-art IT solutions must be part 
of that change.
    Our Nation continues to welcome home our newest generation 
of veterans. Many of these courageous men and women are used to 
cutting edge technologies. In fact, many have not known life 
without that technology. VA's benefits system must begin to 
make the necessary changes to meet 21st Century demands. By 
moving to a paperless benefits system, my hope is that we can 
reduce the inefficiencies in the claims process, lessening the 
frustrations of veterans and their families, and better enable 
veterans to access their 
benefits.
    As a Member of Congress, I went paperless 8 years ago from 
a standpoint of that little thing in everybody's pocket that 
tells them where they are supposed to be in the next hour and 
in the next day. Three years ago my office went paperless. It 
was a scary thought. The truth is, today, I know I can walk 
into any office with a computer and I can find out what 
caseload any individual in that office has. I can check what 
incoming mail they have gotten. I can see whether they have 
processed it. I can see what is delayed.
    More importantly, I can assess the effectiveness of an 
employee--not just my office as a whole, but a specific 
employee--based upon whether there is too much work going to 
them or whether their productivity does not meet the level of 
other workers.
    In the 21st Century that has to be a tool that an agency 
like the Department of Veterans Affairs can and must use, 
though we cannot do that until we are paperless 100 percent.
    I look forward to hearing from our witnesses today about 
VA's progress in moving away from the paper-based claims 
process to an electronic system that I think will better serve 
our Nation's veterans.
    VA's electronic health records are a prime example of the 
incredible benefit that state-of-the-art information technology 
can yield. I hope that veterans can soon benefit from a modern, 
electronic system for benefits as well.
    Also, I hope that the VA will draw from the many lessons it 
has learned over the years to make sure that implementation of 
the Post-9/11 GI bill goes smoothly. The last thing our 
veterans need, after sacrificing so much for our Nation, is to 
encounter confusion, frustration, or delay in accessing their 
well-earned education benefits. We owe them much more than 
that. So, I look forward to hearing from today's witnesses 
about how VA will have this program up and running by August 
1st.
    Mr. Chairman, I thank you for holding, what I think is a 
vitally important hearing and I look forward to working with 
you and other Members throughout the year to facilitate 
anything that the VA might need.
    Thank you.
    Chairman Akaka. Thank you very much Senator Burr. Now I 
would like to call on Senator Murray for her opening statement.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much Mr. Chairman and 
Senator Burr. I really appreciate your holding this hearing on 
IT solutions for benefits delivery at the VA; and I want to 
thank our witnesses who are here today. All of you are on the 
front lines as we attempt to transform the VA into a 21st 
Century organization and I look forward to hearing your 
testimony today.
    I am eager to learn more about the VA's plans to leverage 
the power of IT to improve the quality and timeliness of our 
benefits delivery because our veterans deserve no less. We have 
already seen what the VA is capable of when it uses IT 
effectively to serve our veterans. Its electronic health 
records have improved the quality of health care for veterans, 
while at the same time reducing the cost of delivery.
    The VA has proven effective at providing accessible medical 
information and ensuring continuity of care for our veterans.
    Mr. Chairman I'm especially interested in hearing about the 
current status of the plans to deliver the benefits that were 
promised under the Post-9/11 GI Bill. Veterans who have served 
on our behalf since September 11, 2001, have earned these 
benefits and they have a right to expect them on time. The VA 
cannot be a day late and a dollar short when it comes to those 
important educational benefits that our veterans are expecting. 
I think we're all aware that we are less than 5 months away 
from when the new benefits become effective. I recognize that 
the implementation of benefits delivery is challenging, but 
because of the compressed timeline and changes to the payment 
structure, I look forward to hearing from the VA, especially 
about the two-part IT solution that they are working on to 
ensure that our veterans get their GI benefits on time.
    Mr. Chairman we know from previous hearings that staffing 
alone won't solve all of the problems associated with the VA's 
benefits delivery process. Despite the real progress that we 
have made in staffing up the VA, a lot more needs to be done. 
So, I look forward to hearing from our witnesses today and 
thank you for all of your work on behalf of our veterans. And I 
would just add my thanks to Ted, as well, as he moves onto his 
new position. I wish him the best of luck and look forward to 
working with him.
    Thank you Mr. Chairman.
    Chairman Akaka. Thank you very much Senator Murray. Let me 
call on Senator Burris for his opening statement.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you very much Chairman Akaka and 
Ranking Member Burr.
    I would like to extend my warm welcome as well to the 
panelists, and good luck to you Ted as you head out for greener 
pastures. You are going to be in trouble leaving our Chairman. 
He is the guru for all of us, so do not forget to check in with 
him. OK? And he will help you out.
    Two weeks ago I--along with fellow members of the Illinois 
delegation--met with Secretary Shinseki at the North Chicago 
Veterans Medical Center and I was very pleased with our 
discussion that afternoon. The Secretary and I share a 
commitment to providing the best care in the world for our 
veterans.
    Specifically, we discussed ways to streamline the 
disability claim process and quickly implement the Post-9/11 
and the VBA IT initiatives. It was a productive meeting and I 
look forward to much progress in these areas.
    One thing that I think we have to remember in this 
discussion is that the IT should always help us to deliver the 
best results possible to our veterans. We cannot get bogged 
down in creating processes and rules for IT and lose focus on 
the mission that we serve. Improving IT will not solve the 
claim backlog or ensure that the GI Bill reaches every eligible 
veteran.
    We have to make sure we use these systems more efficiently. 
We must make sure that the personal element is involved in 
these systems and not rely on computers to solve our veterans' 
problems.
    So, unfortunately, Mr. Chairman and members of the panel, I 
am going to have to duck out for another hearing, but my staff 
and I are focused on this issue. We must make sure that it 
works, but we have to keep the human element in here and make 
sure veterans do not get lost in the computer system, as they 
have gotten lost in some of the paperwork and the backlog that 
we are experiencing.
    Thank you very much Mr. Chairman.
    Chairman Akaka. Thank you very much Senator Burris.
    I now welcome Acting Assistant Secretary Stephen W. Warren 
to our first panel. I really appreciate your being here today. 
Joining Mr. Warren is the Director of the Office of Education 
Service in VBA, Keith M. Wilson.
    I thank both of you for joining us today and your full 
statements will appear in the record of this Committee. Let us 
begin with Mr. Warren. Will you please begin with your 
testimony.

  STATEMENT OF STEPHEN W. WARREN, ACTING ASSISTANT SECRETARY, 
 OFFICE OF INFORMATION AND TECHNOLOGY, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Warren. Good morning Chairman Akaka, Ranking Member 
Burr, and Members of the Committee, I would like to thank you 
for the opportunity to testify today on the use of Information 
Technology to enhance claims processing within the Department 
of Veterans Affairs.
    I would like to specifically address IT issues dealing with 
the implementation of the new Post-9/11 GI Bill and how it 
relates to the current delivery of education benefits, as well 
as the challenges of delivering benefits in the future.
    On June 30, 2008, the Post-9/11 Veterans Educational 
Assistance Act was signed into law. The legislation provided 
that the new provisions of law would become effective on 1 
August of this year.
    In order to insure our ability to implement this new 
program and make benefit payments on a very aggressive time 
schedule, we launched an effort to implement an augmented 
manual approach as an interim solution.
    Before describing this interim solution, I would like to 
assure you that we are on schedule. There are three components 
to this interim approach: the Front End Tool; a Back End Tool, 
which I have described in more detail in my written testimony; 
and in addition, there are modifications to 10 existing systems 
that support the claims and decisionmaking process. This 
interim solution will be in place until a more robust, long-
term solution is developed, which is projected to be deployed 
no later than December 2010.
    Before discussing the long-term solution I would like to 
highlight several key milestones established in order to meet 
the August 1 target date.
    We recently deployed our Eligibility Production Tool on 
March 9--the first phase of this interim solution--enabling us 
to deliver the capability to accept applications and 
electronically store eligibility and entitlement information. 
For the 10 respective supporting systems, supporting system 
modifications have been made and are in production. We are on 
track to meet the August 1, 2009, target date.
    Turning to the Long-Term Solution. This is a more robust 
approach that will provide an end-to-end, seamless integrated 
claims processing system utilizing a rules engine, tight data 
integration strategies, and implementation of a well-defined 
Service Oriented Architecture. Once the long-term solution is 
deployed, it is envisioned that other Education Service 
benefits and systems will be modernized and migrated. This will 
ensure that all Veterans will benefit from these technological 
advancements.
    VA is aware of the risks associated with this project and 
has developed several strategies to deal with those risks. A 
co-located, cross-functional Integrated Project Team has been 
put in place. A development approach using agile processes is 
being utilized. Defined requirements were locked down at the 
start of this process and a comprehensive governance structure 
starting from the Under Secretary and myself all of the way 
down to the day-to-day project manager is in place and is being 
utilized.
    As you are already aware an outside an outside consultant 
was hired to conduct a ``Quick-Look'' at our program to provide 
the Post-9/11 GI Bill educational benefits. This study 
validated our present approach and business processes. It, 
however, highlighted eight additional risk factors that we have 
dealt with.
    The study also validated that the Chapter 33 project was 
considered ``high risk'' from the moment of enactment and will 
remain as such due to the compressed timeframe and volume of 
work that needs to be accomplished.
    Mr. Chairman, in closing, I want to assure you that we 
remain steadfast in our efforts to continuously optimize any 
and all information technology improvements as we strive to 
improve our Veterans' benefits IT environment. Our goal is that 
these efforts, coupled with VBA's partnership and the support 
of private industry, will greatly improve the technologies used 
to support the business processes that will significantly 
enhance the delivery of benefits to our Nation's heroes.
    Before closing, in concert with your comments about Mr. 
Pusey, on behalf of the Department I would like to bid Mr. 
Pusey farewell and thank him for his time and tireless service 
to our veterans and our Nation. I would like to hand over to 
Mr. Wilson and then answer questions when he has completed.
    [The prepared statement of Mr. Warren follows:]
 Prepared Statement of Stephen W. Warren, Acting Assistant Secretary, 
   Office of Information and Technology, U.S. Department of Veterans 
                                Affairs
    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
I would like to thank you for the opportunity to testify today on the 
use of information technology (IT) to enhance claims processing within 
the Department of Veterans Affairs (VA), as well as the use of data 
from the Veterans Health Information Technology and Architecture 
(VistA), to assist in the processing of disability claims. I want to 
start by saying that these are very important issues that affect the 
lives of all Veterans and their entitlement to the richly-deserved 
benefits and services VA provides for disabling injuries and illnesses 
they incurred while serving our Country. Secretary Shinseki has charged 
us with being the tip of the spear in the transformation into a 21st 
Century VA, and we will succeed in this mission. There are many issues 
that play a role in this transformation, you have asked about, and I 
will specifically address IT issues related to the implementation of 
the new Post-9/11 GI Bill and how IT relates to the current delivery of 
education benefits, as well as the challenges of delivering benefits in 
the future.
                    post-9/11 gi bill implementation
    On June 30, 2008, the Post-9/11 Veterans Educational Assistance Act 
was signed into law. The Act established in a new chapter 33 of title 
38, United States Code, a new program to provide educational assistance 
to Veterans, servicemembers, and members of the National Guard and 
Selected Reserve serving on active duty in the Armed Forces on or after 
September 11, 2001. This is commonly referred to as the Post-9/11 G.I. 
Bill. The legislation provided that the new provisions of law would 
become effective on August 1, 2009. In furtherance of the new program, 
VA's Office of Information and Technology (OI&T) was appropriated $20 
million in 2008 supplemental funding to begin the development process. 
An additional $35 million was transferred from VBA's General Operating 
Expenses (GOE) Chapter 33 supplemental funding to plan and develop 
interim and long-term solutions to facilitate the delivery of the Post-
9/11 GI Bill benefits. In FY 2009, Congress further supported benefits 
administration IT with $50 million in the Americans Recovery and 
Reinvestment Act, of which $48.5 million will fund implementation of 
the new education benefit.
    In order to insure our ability to implement the new program and 
make benefit payments beginning August 1, 2009, we are currently 
developing an interim solution. The interim solution consists of a 
manual process for claims processing augmented by Information 
Technology (IT) tools, and is comprised ofthree components. These three 
components are the Front End Tool (FET), the Back End Tool (BET) and 
modifications to several existing systems applications. The FET will be 
implemented in three Phases. Phase I of the Front End Tool (FET), was 
successfully deployed on March 9, 2009, delivering the capability to 
accept applications and electronically store eligibility and 
entitlement information that claims examiners enter manually. Phase 2 
will add specific data elements for processing claims under the 
transfer of entitlement provision of the law, provide the capability to 
perform payment calculations for school enrollment periods, and contain 
additional field validations. In addition, implementation of Phase 2 of 
the FET will also include deployment of the BET, which will provide 
finance and accounting processes to generate actual payments. Phase 3 
will add the capability to perform calculations for aggregating service 
periods and determining entitlement amounts and benefit level. The BET 
is based on the existing Benefits Delivery Network (BDN) which is 
currently being modified to address payment processing for Chapter 33. 
In total, ten existing systems applications will be modified to support 
the claims and decisionmaking process. This interim solution will be in 
place until a more robust long-term solution is developed.
    VA's Long-Term Solution will provide an end-to-end, seamless 
integrated claims processing system. The long-term solution will 
utilize a rules engine, tight data integration strategies, and 
implementation of a well-defined Service Oriented Architecture (SOA). 
Once the long-term solution is deployed, it is envisioned that other 
Education Service benefits (including Chapters 30, 1606, and 1607) and 
systems will be modernized and migrated to the new Chapter 33 
infrastructure. This will ensure that all Veterans, from the Generation 
of WWII Veterans to the latest generation now beneficiaries of the 
Post-9/11 GI Bill, will benefit from this technological 
advancement.
    OI&T is aware of the risks associated with this project and has 
developed a cross-functional Integrated Project Team (IPT) as one 
mitigation strategy. The team includes participants from Education 
Service, OI&T, Office of Resource Management (ORM), and the Office of 
Field Operations (OFO). On-site members of the IPT are co-located in 
the Chapter 33 ``Collaboration Room'' to foster synergy and teamwork. 
This type of environment allows the team to participate in face-to-face 
meetings, to address change control, business requirements, testing, 
and optimization of other day-to-day project activities.
    In keeping with the our commitment to being a results driven 
organization, an outside consultant was hired to conduct a ``Quick-
Look'' study to validate our plans and procedures for executing this 
large new program of educational benefits. The ``Quick-Look'' study, 
completed on February 27, 2009, validated VA's current approach and 
business processes and also highlighted eight additional risk factors 
for the VA to consider. In response to one of these highlighted risks, 
the Secretary appointed a single executive to whom all personnel 
involved in Chapter 33 will report. Mr. Keith Wilson, Veterans Benefits 
Administration, is the lead in this role. This single executive will 
ensure that critical decisionmaking actions are performed to meet the 
tight timeline for meeting the GI Bill's requirements. The Secretary 
has also accepted the additional highlighted risks. The ``Quick-Look'' 
study also validated that the Chapter 33 project was considered ``high 
risk'' from the moment of enactment and will remain as such due to the 
compressed timeframe and volume of work that needs to be accomplished.
    OI&T, in coordination with VBA, has also employed a tailored and 
responsive acquisition strategy. The interim solution will be developed 
``in house'' using existing development resources. For the long-term 
solution, VA is using an Inter-Agency Agreement with Space and Naval 
Warfare Systems Center Atlantic (SPAWAR.) Initially, SPAWAR will 
develop and host the solution in their data center in New Orleans, 
Louisiana. Once the solution is deployed, VA intends to transition the 
infrastructure to the VA environment.
    I would also like to take this opportunity to highlight OI&T's key 
milestones, which we established in order to meet the August 1, 2009, 
target date. As stated earlier, we recently completed our Eligibility 
Production deployment milestone on March 9, 2009, enabling us to 
deliver the capability to accept applications and electronically store 
eligibility and entitlement information that claims examiners enter 
manually. In addition, 4 of the 14 respective supporting system 
modifications were made in production. Our next milestone is April 10, 
2009, at which time we envision the lockdown of requirements for the 
Supplemental Claims Systems, needed to complete the development of the 
third phase of the Front End Tool in order to process supplemental 
Chapter 33 educational claims.
    Completion of the Awards and Enrollment System in Production is 
scheduled for July 6, 2009, our target date for the deployment of award 
calculations; as well as the deployment of additional system 
modifications. During this same time, we envision the completion of the 
BET, which will provide finance and accounting processes to generate 
actual payments. Achieving this milestone will assure that we have the 
systems in place to meet the August 1, 2009, effective date. Our final 
interim solution goal, targeted for September 17, 2009, is to complete 
the FET Phase 3, which will support Chapter 33 supplemental claims 
processing. Implementation of this final phase will allow claims 
examiners to process any changes that a Veteran or his or her 
beneficiary may make to his or her current Chapter 33 claim.
                          paperless initiative
    I would next like to address VA's efforts at leveraging information 
technology to improve the timely delivery of Veterans' benefits. As the 
President, and Secretary have repeatedly stated, our charge is to 
transform this organization into a 21st VA. The Office of Information 
and Technology (OI&T) is a critical component of that transformation, 
and is collaborating with VBA in the development of a comprehensive 
strategy to enable the achievement of their target business model. The 
operational concept of the Paperless Delivery of Veterans Benefits 
Initiative (Paperless Initiative) is to employ enhanced technology 
platforms to support Veteran-focused end-to-end benefits delivery, to 
include imaging, computable data, electronic workflow capabilities, and 
enterprise content and correspondence-management services. The 
initiative will integrate with VBA's core business application and 
modernized payment system, the Veterans Service Network (VETSNET), as 
well as existing and planned infrastructure(s).
    In response to VBA's needs, OI&T is developing a technology 
strategy to ensure VBA's mission needs are met and that appropriate 
enterprise architecture is employed. An existing application, Virtual 
VA, is currently being used to support some paperless processing in the 
Compensation and Pension business line. It has also enabled OI&T and 
VBA to identify valuable requirements and lessons learned for 
organization-wide paperless processing. The millions of electronic 
documents stored within Virtual VA will also be migrated into the new 
paperless system. This vast repository of historical records, as well 
as the lessons learned through our experiences with Virtual VA, would 
not only assist our own business practices, but it will have a direct, 
and quantifiable positive effect on the Veteran.
    Core elements of the Paperless Initiative include: Development of 
VBA-wide services to enable common methods for electronically and 
securely exchanging data with Veterans, external agencies, and other 
systems; development of operating standards for doing business in an 
electronic fashion, to include receipt and transformation of paper to 
electronic data, routing of work, and workload management; and 
integration and standardization of VBA business processes, to provide 
consistent, easy-to-use, and reliable services to enhance the Veteran 
self-service experience. By focusing on the Veteran needs as a people-
centric organization, we have established a benchmark for success--the 
satisfaction of our client, the Veteran.
    In September 2008, a Lead Systems Integrator contract was awarded 
to Electronic Data Systems (EDS). The Scope of Work of the Lead Systems 
Integrator Contractor (LSIC) is to assist VA with the development of an 
overarching technical strategy and elicit business requirements for the 
Paperless Initiative. These key deliverables will enable OI&T to begin 
specifying the supporting technical architecture and business 
application to support Veteran-centric end-to-end paperless benefits 
delivery. Additionally, an Independent Verification and Validation 
(IV&V) contract was awarded on February 11, 2009, to Innovative 
Management Concepts (IMC). These IV&V contractor services will provide 
independent quality assurance, testing, and review and monitoring of 
LSIC and future Application Developer Contractor (ADC) deliverables and 
performance. The ADC, currently scheduled for award by November 2009, 
will be responsible for building the end-state solution that will use 
the VA IT system spiral development life cycle consisting of multiple 
technical data release packages (TDPs). These packages will include:

    <bullet> an enterprise portal providing an on-line interface for 
Veterans and employees;
    <bullet> data integration providing the capability to access an 
accurate, timely, consolidated view of data regardless of the 
underlying system(s);
    <bullet> imaging which will provide the service to securely 
capture, store, search, and retrieve images of forms, correspondence, 
medical records and other types of records;
    <bullet> a ``forms'' service which is the mechanism to access, pre-
populate and submit applications via the portal;
    <bullet> correspondence functionality to generate, print, send, and 
record delivery of template-based correspondence including merged 
veteran-specific data; and
    <bullet> a ``messaging and workflow'' service to manage the flow of 
data, images, and work items between users and underlying system 
components.

    Finally, Mr. Chairman, I would like to highlight how the 
utilization of data from the Veterans Health Information Technology and 
Architecture (VistA) improves the processing of Veteran disability 
claims. The business application used by VBA to navigate and retrieve 
clinical data within VistA is called the Compensation and Pension 
Record Interchange (CAPRI). Online access to medical data housed in 
VHA's VistA allows VBA personnel to obtain necessary medical 
information through the Federal Health Information Exchange and 
Bidirectional Health Information Exchange, or FHIE and BHIE. These 
exchanges allow the individuals responsible for determining a Veteran's 
eligibility for benefits to seamlessly obtain relevant and appropriate 
data from the Veteran's online health record with little to no delay.
    CAPRI also provides access to some Department of Defense (DOD) 
medical records through integration through the FHIE framework. CAPRI 
was nationally deployed during fiscal year 2000, and enables users to 
simply ``point and click'' to bring necessary information onto their 
desktops. Since its deployment, the application has been repeatedly 
enhanced, as new categories of clinical data in VHA and DOD became 
available.
    Mr. Chairman, in closing, I want to assure you that we remain 
steadfast in our efforts to continuously optimize any and all 
information technology improvements as we strive to improve our 
Veterans' benefits IT environment. Our goal is that these efforts, 
coupled with VBA's partnership and the support of private industry, 
will greatly improve the technologies used to support the business 
processes that will significantly enhance the delivery of benefits to 
our Nation's heroes. Thank you for your time and the opportunity to 
address these issues. At this time, I would be happy to answer any 
questions you may have.

    Chairman Akaka. Mr. Wilson.

  STATEMENT OF KEITH M. WILSON, DIRECTOR, OFFICE OF EDUCATION 
           SERVICE, VETERANS BENEFITS ADMINISTRATION

    Mr. Wilson. Good afternoon Chairman Akaka, Ranking Member 
Burr, and Members of the Committee. I appreciate the 
opportunity to appear before you today to discuss the 
Department of Veterans Affairs strategy for implementation of 
the Post-9/11 GI Bill. My testimony will address the 
information technology solutions being pursued by VA and the 
implementation of the Post-9/11 GI Bill, as requested by the 
Committee.
    The processing of VA education benefits for the existing 
benefit programs is generally accomplished through the Benefits 
Delivery Network, the BDN. This system, although aging, has 
been modified to support many of the changes in benefit 
programs over the years; primarily because the basic payment 
structure for the programs has not changed. The basic structure 
is one of payments made directly to veterans or servicemembers 
based on an established full-time rate, adjusted by the number 
of credit hours attended by the individual.
    The Post-9/11 GI Bill significantly changes the 
administration of the education benefit in a number of ways. No 
longer are benefits paid only to the claimant, but to both the 
claimant and directly to the educational institution. Further, 
instead of a single payment being made based on a single 
calculation for the number of credit hours enrolled, VA is 
required to make three separate payments: tuition and fees; a 
housing allowance; and a books and supplies 
stipend.
    These payments are not based solely on hours enrolled, but 
also on the geographic location of the claimant's school. 
Because of these major differences, VA had no immediate IT 
solution available to accommodate this new benefit program, and 
modifications of the existing BDN system to provide a 
comprehensive solution was not possible by August 1, 2009.
    Our short-term strategy to implement the Post-9/11 GI Bill 
consists of a two-part IT solution: a fiscal payment system 
which uses the existing Benefits Delivery Network to issue 
payments; and a Front End Tool to be used by VA claims 
examiners to augment the manual adjudication of the claims.
    We are using internal VA-IT staff to build the needed 
payment processing and delivery mechanisms within the BDN 
fiscal payment system. This functionality will allow for entry 
of all payment types including recurring payments for the 
housing allowance, and provide auditing, account trails, and 
some reporting capabilities to meet finance and budgetary 
requirements.
    The Post-9/11 GI Bill Front End Tool will augment the 
manual process, providing additional support that is accessible 
by processors at our Regional Processing Offices as well as VA 
Central Office. The VA Office of Information and Technology is 
delivering the functionality of the Front End Tool in three 
phases.
    Phase 1 of this effort delivered the capability to accept 
applications and electronically store eligibility and 
entitlement information that claims examiners enter manually. 
Phase 2 will add specific data elements for processing claims 
under the transfer of entitlement provisions of the law, 
provide the capability to perform payment calculations for 
school enrollment periods, and contain additional field 
validations. Phase 3 will add the capability to perform 
calculations for aggregating service periods and determining 
entitlement amounts under the benefit. Phase 1 was successfully 
deployed on March 9, 2009.
    The functionality for Phase 2 of the Front End Tool is 
expected to be available for use by VA claims examiners on July 
6, 2009. The Phase 2 supports payment calculations based on 
enrollment data; this availability date coincides with the 
planned production availability for the BDN payment 
functionality.
    Phase 3, will include our lowest priority functions having 
the least impact and will be delivered by the end of September 
2009.
    In addition to the modifications to the BDN fiscal payment 
system, VBA is working with system developers from OI&T to 
enhance key existing IT systems. For example, VA-ONCE, an 
application that allows school certifying officials to transmit 
enrollment data electronically to VA, is being modified to 
accommodate the reporting requirements of the new program. It 
is important to remember that this IT approach is a short-term 
solution that we expect to retire in December 2010, when the 
new replacement system that will be used for the long term is 
deployed in cooperation with our partners at SPAWAR.
    Our long-term strategy to implement the Post-9/11 GI Bill 
will rely on support from SPAWAR, to design, develop, and 
deploy an end-to-end solution. This end-to-end solution will 
utilize rules-based, industry-standard technology for the 
delivery of education benefits. The Post-9/11 GI Bill contains 
eligibility rules and benefits determinations that will work 
well with rules-based technology.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or any Members of the 
Committee may have.
    [The prepared statement of Mr. Wilson follows:]
  Prepared Statement of Keith M. Wilson, Director, Education Service, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Good afternoon Chairman Akaka, Ranking Member Burr, and Members of 
the Committee. I appreciate the opportunity to appear before you today 
to discuss the Department of Veterans Affairs (VA) strategy for 
implementation of the Post-9/11 GI Bill (chapter 33 of title 38, United 
States Code). I want to start by saying that I appreciate that these 
are critical issues that affect the lives of all Veterans and their 
entitlement to the richly-deserved benefits and services VA provides 
for disabling injuries and illnesses they incurred while serving our 
Country. This is, indeed a sacred trust, and we are committed to the 
transformation into a 21st Century VA. My testimony will address the 
information technology (IT) solutions being pursued by VA and the 
implementation of the Post-9/11 GI Bill, as requested by the Committee.
    The Post-9/11 GI Bill will provide Veterans, servicemembers, and 
members of the National Guard and Selected Reserve serving on active 
duty in the Armed Forces on or after September 11, 2001, with 
educational assistance, generally in the form of tuition and fees, a 
monthly housing allowance, and a books and supplies stipend, to assist 
them in reaching their educational or vocational goals. This program 
will also assist in their readjustment to civilian life, support the 
armed services recruitment and retention efforts, and enhance the 
Nation's competitiveness through the development of a more highly 
educated and productive workforce.
                               background
    The processing of VA education benefits for the existing benefit 
programs is generally accomplished through the Benefits Delivery 
Network (BDN). This system, although aging, has been modified to 
support many of the changes in the benefit programs over the years; 
primarily because the basic payment structure for the programs had not 
changed. The basic structure is one of payments made directly to 
Veterans or servicemembers based on an established full-time rate, 
adjusted by the number of credit hours attended by the individual.
    The Post-9/11 GI Bill significantly changes the administration of 
education benefits in a number of ways. No longer are benefits paid 
only to the claimant, but to both the claimant and directly to the 
educational institution. Further, instead of a single payment being 
made based on a single calculation for the number of credit hours 
enrolled, VA is required to make three separate payments (tuition and 
fees, a housing allowance, and a books and supplies stipend). These 
payments are not based solely on hours enrolled, but also on the 
geographic location of the claimant's school. Because of these major 
differences, VA had no immediate IT solution available to accommodate 
this new benefit program, and modification of the existing BDN system 
to provide a comprehensive solution was not possible by August 1, 2009.
    When the Montgomery GI Bill (MGIB) was enacted in October 1984, 
individuals could not begin using benefits until 24 months of active-
duty service after June 30, 1985, had been completed. Thus, VA had 
approximately 32 months to prepare to deliver benefits. VA received 
5,760 claims for MGIB benefits through 1988. In contrast, the law that 
established the Post-9/11 GI Bill, with its far more complex payment 
requirements, allowed VA only 13 months to develop a payment system for 
what likely will be hundreds of thousands of claimants who will be 
immediately eligible for benefits on and after August 1, 2009.
    Prior to the enactment of the Post-9/11 GI Bill, VA had been moving 
toward rules-based technology for delivery of education benefits. 
However, this initiative was not scheduled for implementation prior to 
2013.
                            interim solution
    Our short-term strategy to implement the Post-9/11 GI Bill consists 
of a two-part IT solution; a fiscal payment system which uses the 
existing Benefits Delivery Network (BDN) to issue payments, and a 
``Front End Tool'' (FET) for use by VA claims examiners to augment the 
manual adjudication of the claims.
    We are using internal IT staff to build the needed payment 
processing and delivery mechanisms within the BDN fiscal payment 
system. This functionality will allow for entry of all payment types 
including recurring payments (housing allowance), and provide 
accounting, audit trail, and some reporting capabilities to meet 
finance and budgetary requirements.
    The Post-9/11 GI Bill FET will augment the manual process, 
providing additional support that is accessible by processors in our 
Regional Processing Offices (RPOs) and VA Central Office. The VA Office 
of Information and Technology (OI&T) is delivering the functionality of 
the FET in three phases, which are based on VA priorities, and account 
for the capabilities and resources available from OI&T. Phase 1 of this 
effort delivered the capability to accept applications and 
electronically store eligibility and entitlement information that 
claims examiners enter manually. Phase 2 will add specific data 
elements for processing claims under the transfer of entitlement 
provision of the law, provide the capability to perform payment 
calculations for school enrollment periods, and contain additional 
field validations. Phase 3 will add the capability to perform 
calculations for aggregating service periods and determining 
entitlement amounts and benefit level. The FET will be the primary tool 
used by VA claims examiners in preparing and processing education 
awards.
    Education Service conducted Phase 1 testing of the FET from January 
28, 2009, through February 13, 2009, utilizing teams of subject-matter 
experts. Phase 1 was successfully deployed on March 9, 2009.
    The functionality for Phase 2 of the FET is expected to be 
available for use by VA claims examiners by July 6, 2009. Phase 2 
supports payment calculations based on enrollment data; this 
availability date coincides with the planned production availability of 
the BDN fiscal payment system.
    Development of the BDN short-term solution is on schedule. The BDN 
portion of the short-term solution allows for input of multiple fiscal 
transactions to pay tuition and fees and Yellow Ribbon Program payments 
to schools, as well as recurring housing allowance payments, books and 
supplies stipends, and various other Post-9/11 GI Bill payments to 
students. Full system testing of the BDN solution is scheduled to begin 
on May 4, 2009, and will be conducted over a seven-week period through 
June 2009.
    Phase 3, which includes our lowest priority functions having the 
least impact to our ability to process claims, is expected to be 
operationally ready by the end of September 2009. The most significant 
impact of a delay in this phase would be the inability to amend 
enrollment periods that have been entered into the FET. Due to the 
complexity of the payment calculations, additional development time was 
required to address the complication in amending those enrollment 
periods when necessary. VA will be required to amend the enrollment 
periods manually if this capability is not available.
    In addition to the modifications to the BDN fiscal payment system, 
i.e., the Back End Tool (BET) and the development of the FET, VBA is 
working with system developers from OI&T, as well as our Office of 
Business Process Integration, to enhance key existing IT systems. For 
example, VA-ONCE, an application that allows school certifying 
officials to transmit enrollment data electronically to VA, is being 
modified to accommodate the reporting requirements of the new program.
    It is important to remember that this IT approach is a short-term 
solution that we expect to retire by December 2010, when the new 
replacement system that will be used for the long term is deployed in 
cooperation with our partners at the Space and Naval Warfare Systems 
Center Atlantic (SPAWAR).
                           long-term strategy
    Our long-term strategy to implement the Post-9/11 GI Bill will rely 
on support from SPAWAR, to design, develop, and deploy an end-to-end 
solution that utilizes rules-based, industry-standard technologies, for 
the delivery of education benefits. The Post-9/11 GI Bill contains 
eligibility rules and benefit determinations that will work well with 
rules-based technology that requires minimal human intervention. VA is 
currently working with SPAWAR on the long-term IT solution, and expects 
the development of this program to be completed no later than December 
2010.
    Mr. Chairman, this concludes my statement. I want to conclude by 
stating that I am personally committed to ensuring the success of this 
program, as is every employee working tirelessly on this project. It is 
our sincere hope that you will gain a clear vision as to the process, 
and our progress. Our clients are the Veterans, and we are privileged 
to be charged with providing the Veterans with timely benefits--we will 
meet that charge. I would be pleased to answer any questions you or any 
of the other Members of the Committee may have.

    Chairman Akaka. Thank you very much Mr. Wilson.
    My first question is to you Mr. Wilson. I understand that 
even though the new education program becomes effective on 
August 1, the first payments will not be made until September 
1. Is that 
correct?
    Mr. Wilson. The first payments that will go out to the 
veterans will be payments for training received at the end of 
the month following the month that they are first enrolled.
    Since most enrollment periods will begin in August around 
September 1, we will cut the first monthly housing allowance 
check for the training time, attendance time during September. 
So the answer would be yes, that would be the first partial 
check. The first full housing allowance check will be generated 
around October 1.
    Chairman Akaka. How are the veterans being made aware of 
this information?
    Mr. Wilson. We have a multi-phased, redundant process in 
which we are communicating with veterans. Our normal outreach 
processes are in place and we do--and have done for years--four 
direct mailings to servicemembers while they are on active 
duty.
    One mailing at 12 months into active service, another at 24 
months, the third at 6 months prior to separation, and then a 
fourth direct mailing at separation. In addition to those 
direct mailing we have two initiatives underway. One will be a 
direct mailing to all servicemembers that had at least 30 days 
of Post-9/11 service. That's about 2.1 million individuals, we 
expect that to be completed in about the next month or so.
    We're also doing a direct mailing to all active duty 
members currently on active duty and that will go out either as 
a hard copy or potentially through DOD's e-mail system to all 
active duty members. In addition to that we have in place our 
existing outreach mechanisms with organizations such as the 
State Approving 
Agencies.
    The State Approving Agencies have been under contract to VA 
for decades and one of their missions is outreach directly to 
individuals and schools within their States.
    Chairman Akaka. I'm sure in your strategizing for this that 
you can see that there are many errors. This question is for 
both of you. Do you anticipate that there will be some 
unavoidable errors? If so, what is the mechanism in place to 
fix these errors quickly and to repair the underlying issue 
which caused the error?
    Mr. Wilson. From a claims processing perspective, I think 
it is fair to say that there will certainly be errors. Our 
accuracy rate right now for adjudicating education claims is 
about 96 percent--a 96 percent payment accuracy. That is our 
goal for this year as well, and we are not prepared to back off 
that goal.
    We process about 1.6 million education claims a year, 99.9 
percent accuracy would mean some are still incorrect. We will 
go to the ends of the earth to make sure that we are not making 
erroneous payments.
    Most specifically, we have been underway for months within 
VA training both our existing staff and the 530 additional 
people we have hired to adjudicate these claims on this 
benefit. That has been underway for some time.
    Additionally, we have in place a two-step authorization 
process before we actually award benefits. So any individual, 
any claims examiner that makes the initial determination will 
have that decision sent through a seasoned authorizer before we 
actually authorize the payment and notify the veteran.
    So, I believe we have a robust mechanism in place on the 
front end. On the back end we will continue to have our 
oversight mechanisms in place in terms of auditing claims for 
quality and as we spot any trends we will implement corrections 
to those errors into our training programs.
    Mr. Warren. Turning to the development process, if I may 
Mr. Chairman.
    Chairman Akaka. Mr. Warren
    Mr. Warren. One of the things I had mentioned in my 
comments was that we had moved to an agile development process. 
So we had broken the tradition of putting together requirements 
and then developing for months and months and then delivering a 
product to see if it works.
    What we have changed with this program is, we are 
incrementally developing it and testing it as we go down that 
path so we do not find out at the end when we actually need to 
deliver, whether the system will work or not. We are testing it 
on a very routinized basis, sometimes daily, mostly on a weekly 
basis. Lay it out, make sure it works. The end users are 
testing it and anything we find that is wrong, we immediately 
go back and fix. So, this is one of the reasons we have been 
able to move relatively fast on this Mr. Chairman.
    Chairman Akaka. That you for your responses.
    Senator Burr.
    Senator Burr. To either one of you, give me an idea of how 
many claims you expect to receive this fall and what you 
anticipate the average number of days to be for processing 
those claims.
    Mr. Wilson. We anticipate about a 20 percent increase in 
claims volume, which would translate into a total recipient 
pool of about 450,000 claimants during a given year. And we 
track that normally over a year period, so we are talking about 
that volume over the first year of the program essentially.
    Our average processing timeliness goals for this year are 
24 days. We established those goals before this program was 
implemented; however, we are not prepared to back off those 
goals. We believe that is still something that we should 
aggressively work through. We have confidence that we can meet 
those days. So 24 days for original claims. For a supplemental 
claim, which is a re-enrollment type of claim, 10 days is our 
goal for those. And again, 96 percent accuracy continues to be 
our goal.
    In terms of the specifics concerning the volume in the fall 
as you asked, generally speaking, historically about 60 percent 
or so of our total folks that we pay over a year period are 
receiving benefits during the first quarter of the year. Our 
students may not necessarily attend the first time in the fall; 
it could be the spring or the summer period.
    Senator Burr. OK. The ``Quick-Look'' study that you 
mentioned in your testimony found, and I quote, ``because 
resources are limited, time is short, and requirements 
unstable, there is a risk that the quality of Phase 1 product 
will be compromised to meet the Phase 2 requirements.''
    In response to that General Shinseki recently testified in 
front of the Committee and I will quote him, ``All of that's 
true, but we are where we are and we're working to improve on 
those things.''
    Now if there is a problem with Phase 1, what impact would 
it have on veterans and their families applying for benefits? 
Number 1. And number 2, would this problem increase the error 
rate in processing those claims?
    Mr. Warren. If I could Senator Burr. The ``Quick-Look'' 
study was prior to March 9 and the Phase 1 they were referring 
to was delivery of that piece of the system on March 9. We met 
that schedule. The system came online and is being used for 
training for the examiners. So the risk that was identified we 
dealt with, we overcame, and we delivered.
    The risk is still high throughout the project. It is one of 
the reasons why the project team is basically they're in one 
room. They are in a continuous meeting from dawn to dusk. It is 
not people all over the VA complex. They are a co-located, 
integrated team--Education Service folks, Benefits folks, and 
IT folks--working this project day in and day out.
    I meet with the Under Secretary every week. We run through 
what is there; to manage risks, to make sure that if there is 
any risk we are aware of it; and we are putting in place 
controls and contingencies to deal with those risks. In this 
case, there was a high risk, we delivered on schedule. That 
high risk continues throughout the project, we are managing it 
and monitoring every single day so it does not get in the way 
of delivering these benefits to the veterans and their 
families.
    Senator Burr. Share with me, if you will, how the claims 
processing employee will do some things manually.
    Mr. Wilson. Yes. The work that they are going to be doing 
manually, that they would not have been doing previously, is 
populating the information in the Front End Tool. The Front End 
Tool is an IT application that for Phase 1 will store the 
information that we will use when we are making the eligibility 
determination. As Mr. Warren indicated, that tool has deployed. 
Our employees are being trained on that tool right now.
    From the veterans perspective, what they are going to see 
as a result of that tool is: on May 1, we expect to begin 
receiving applications so that we can issue certificates of 
eligibility to claimants, and it will be the information that 
we receive from that claimant, as well as the eligibility 
information that we receive from DOD, that we will be 
populating into that tool, because there will not be that 
capability to pre-populate the information early on.
    Senator Burr. Mr. Warren, you said that in areas that have 
risk that safeguards are in place. What safeguards do you have 
in place for the manual process that these claims processors go 
through?
    Mr. Warren. If I could Senator, the controls that are in 
place from the risk, for the manual entry, is the two-step 
process that was discussed in terms of having a seasoned 
examiner review the decisions made by the individual entering 
the information in.
    As we have gone forward with this augmented manual 
approach, we are using IT tools to assist in this process; we 
have made adjustments. As an example, when we first started out 
it was all manual entry by the Education employee. Since then 
we have been able to implement a secondary system which 
actually reaches into existing databases and pulls forward any 
information that already exits on that veteran, either from DOD 
or from ourselves.
    So, what we have been doing is looking at how do we 
decrease the quality errors that are possible as a result of 
manual entry. So now it is down to new individuals for which we 
do not have information; data gets entered in and then we have 
a two-step process, if you will, where somebody makes sure all 
of the information is correct. No errors were made and that the 
check for the appropriate amount is going out.
    Senator Burr. A hypothetical--and I ask my colleagues to 
bear with me for 1 second and that way we will not require a 
second round of questions.
    Let us accelerate, if we can, to the fall.
    Mr. Warren. Sure.
    Senator Burr. I am a veteran. I have got an education 
benefit. I have chosen my school. I show up at school, tuition 
had not been paid. The registrar says, ``You are not 
enrolled.'' What happens and how long does it take?
    Mr. Wilson. Perhaps the best way to address that first is 
to walk through the process that a veteran will experience. 
Beginning May 1 we will begin issuing Certificates of 
Eligibility. The next step----
    Senator Burr. I realize how we have got this timelined out. 
But I am asking you to skip over everything.
    Mr. Wilson. OK.
    Senator Burr. Assume that everything that we have done, 
every communication that we have had suggested to veterans that 
they are approved; everything is happening.
    The simplest of things did not happen. There was not a 
transfer of money from VA to an institution. And the reality 
is, as a parent with one in college, you do not have long to 
fulfill the financial obligation. They do not accept that ``the 
check is in the mail.''
    What does a veteran do and how quick are those safeguards 
to address that enrollment challenge?
    Mr. Wilson. The mechanism we have in place right now, which 
is the same mechanism we have had in place for some time is 
when the school submits the enrollment information to us, that 
is the cue to us to transmit the payments. In this case, under 
the new program it will transmit multiple payments. The tuition 
and fee payments will begin going out July 8; the housing 
allowance payments will begin going out August 3.
    If there was something that prohibited those checks from 
going out--I guess I am struggling a little bit with perhaps 
what that would be because we are using our existing payment 
mechanism to send the checks in the same----
    Senator Burr. Listen, there is nobody that is rooting for 
you more than we are.
    Mr. Wilson. I understand.
    Senator Burr. Because the point on your timeline that I 
have just mentioned is where we get involved.
    Mr. Wilson. Right.
    Senator Burr. We are the ones that will get the call right 
after you get the call from the Registrar's Office that payment 
has not been made. And I would only ask you in the search for 
thinking through the whole process, that the law safeguard 
asks: what do we design for the day that a veteran shows up and 
for some unknown reason a payment has not been made to somebody 
who is eligible?
    Mr. Wilson. The first thing they do is call us, 1-888-GI-
BILL-1 and make us aware. That is the very first thing that 
they do.
    Senator Burr. And I would hope that at some point you could 
share with us what you have instructed whoever answers that 
phone to do and what the timeline or expectation is for the 
hours that that will be addressed--not days.
    Mr. Wilson. Yes, understood. And I can get that information 
to you Senator, it is the same process that we have in place 
now. Obviously, we generate millions of checks; some of them do 
not show up. So, we do have an existing process to handle that.
    Senator Burr. Thank you.
    Chairman Akaka. Thank you Senator Burr.
    Senator Murray.
    Senator Murray. Thank you Mr. Chairman.
    Mr. Wilson, the current economic climate is affecting 
everybody, including our veterans who are coming home. These 
men and women are coming home and their ability to get a job in 
the current climate is very tough. Do you expect economic 
uncertainty to impact the number of service men and women who 
will ask for Post-9/11 GI Bill help?
    Mr. Wilson. There will certainly be impacts on an 
individual level. Statistically, how that would impact us in 
terms of the administration of the program as a whole 
concerning 500,000 plus veterans is less clear at this point. 
The prime driver for usage for our program are individuals that 
separate from service. Generally they will begin using the 
program immediately or within the first 2 years, perhaps 3 
years of service and then the new users will kind of taper off 
over the remaining 10 years that they have to use the benefit.
    So there are really two groups that we are serving here: 
individuals that have Post-9/11 service; or already have 
service. Generally, historically 70 percent of those 
individuals have used some amount of their benefits already. So 
there are folks out there that will still have unused benefits 
that could come to us that would not have otherwise. We would 
expect to see some increase, perhaps in there.
    Senator Murray. And are you ready for that?
    Mr. Wilson. I believe we are, yes.
    Senator Murray. OK.
    Mr. Wilson. The other impact could be the individuals that 
are now potentially leaving service, which again is our prime 
driver, whether they will continue to make 
the decision to leave the service.
    Senator Murray. So it could go either way?
    Mr. Wilson. It could go either way. Yes, ma'am.
    Senator Murray. OK. Mr. Warren, in the VA Inspector 
General's testimony last month when he went before the House, 
the IG's office identified a number of concerns with the VA's 
IT security. The VAIG testified that their audit results, and I 
want to read the quote, ``support that a material weakness 
still exists related to the implementation of VA's agency-wide 
information security program.''
    Can you tell us what the VA is doing to address those 
security issues?
    Mr. Warren. Yes, ma'am. The report was in follow-up to the 
annual FISMA evaluation that takes place. The Inspector General 
identified that though we had made progress in putting together 
overarching programs and policies, that at the site level the 
actual corrective measures were not being implemented in a 
timely 
manner.
    One of the things that we have done, is we have reached out 
to our Chief Information Officers (CIOs) at each of the sites 
and identified for them the specific things that were 
identified by ongoing evaluations and audits, which are 
actually captured at each site, are important to them, and are 
things they need to focus on, on a daily basis.
    We have also gone out to those CIOs where there are 
resources available to them at the local level to apply to 
resolving any open findings. We track every one of those open 
findings in a dashboard that I receive every morning where I 
can actually drill down from a national level to a regional 
level to a VISN level to a site level to a specific medical 
center and track progress toward closing open actions. It has 
my constant attention at that level as well as with our Head of 
Operations to make sure he is giving the support necessary at 
the local level to close those open deficiencies.
    Senator Murray. And is that going to apply for security 
measures related to the Post-9/11 GI Bill?
    Mr. Warren. Those security measures apply to all systems, 
all locations, all processes that the Department utilizes in 
the delivery of benefits and services. So it is more than just 
on the Health side, it is across the board. And the dashboard 
is a comprehensive view of every function and every activity at 
the Department.
    Senator Murray. OK. Thank you.
    Mr. Wilson, I understand that private schools are waiting 
for the final regulations to be issued before deciding whether 
or not to participate in the Yellow Ribbon Program.
    Based on your preliminary conversations with some of these 
private schools, do you have any guess as to the level of 
private school participation in the Yellow Ribbon Program?
    Mr. Wilson. I would be venturing a guess in terms of a 
precise number, but I can say that there has been significant 
interest. There has been a great deal of interest. I would 
expect a lot of schools to participate.
    Senator Murray. So you have had a lot of conversations and 
you are hearing that they are interested?
    Mr. Wilson. Yes. We had sent out an informational survey to 
kind of poll schools to find out, based on what they knew right 
now, whether there would be interest, and we received a very 
strong response to that request.
    Incidentally, our regulations did clear OMB yesterday so 
they should be published very soon.
    Senator Murray. I just have a few seconds left, but Mr. 
Wilson in a hearing before the House earlier this month the VA 
Inspector General's Office said they were concerned that VBA 
may need more staff than currently planned to successfully 
implement the GI Bill. Do you think those concerns are 
legitimate?
    Mr. Wilson. The modeling that we have worked up--which we 
have revisited as time has gone by and have learned more--
indicate that we have the capability we need to process the 
claims right now. We have accounted for a 20 percent increase 
in usage. We have also accounted for the possibility that all 
folks that are eligible would come in basically on day one and 
being able to handle those on day one.
    One of the advantages that we have as we implemented this 
new program is, we can leverage the summer period this year 
because that is normally one of our slow periods. And that is 
why we want to leverage the Certificate of Eligibility process 
and get a lot of that work out of the way during the summer, so 
that when the fall enrollments come, basically what we will 
have to do then is plug in the numbers that the schools report 
and we can issue payments. That is going to help the fall 
process.
    Senator Murray. All right. Very good. Thank you very much. 
Thanks to both of you. Thanks Mr. Chairman.
    Chairman Akaka. Thank you very much Senator Murray.
    Mr. Wilson, on technical changes could you comment on what 
effect any additional changes made at this point would have on 
your effort to implement the new GI Bill program on August 1.
    Mr. Wilson. Any kind of legislative changes could be 
significant for us. They could create a very high risk of us 
being unable to meet our August 1, 2009, deadline. And the 
reason for that is we have locked down what we need to in terms 
of functional requirements--business requirements to implement 
this program as it currently exists in statute.
    If we were to be required to go back a re-baseline those 
functional requirements, it would potentially throw our entire 
timeline for deployment into question.
    Chairman Akaka. Mr. Wilson it is my understanding that 
there is a concern that the new Education programs could 
adversely affect the delivery of benefits under other Education 
programs in Title 38. Do you have any similar concerns and if 
so how do you intend to address them?
    Mr. Wilson. I do not share those concerns and the reason I 
say that is our performance goals, which I have already 
indicated are 24 and 10 days, apply to all of our benefit 
programs. So in the normal course of business we manage the 
work in all of the Education Benefit programs we administer.
    Chairman Akaka. Senator Burr asked about payments, this 
question is for either of you. Are payments to institutions 
part of your IT plans? In other words, are these payments going 
to be automatically sent out?
    Mr. Wilson. Yes, they are part of our IT plans and they 
will go out during the same process as adjudicating the claim 
for the veteran. All of the payments--the tuition and fee 
payment, the housing allowance payment, the books and supply 
stipend--are part of the same claim process and the appropriate 
payments will be made on each individual case.
    Chairman Akaka. Mr. Warren. How has VA's IT centralization 
placed VA in a better position to take advantage of new 
technologies to improve on the delivery of benefits to 
veterans?
    Mr. Warren. I believe centralization has allowed us to look 
across the Department and look across the multiple services and 
products that the Department provides to our veterans and to 
bring to bear the technologies that work in all of those areas. 
So we are now able to capitalize on the successes in any part 
of the Department and apply it to all of our problems, as well 
as to capitalize on any failed projects or approaches and use 
those lessons learned not just in that particular program, but 
across the whole of the Department.
    So we are able to take advantage of all of the things that 
the Department is doing, the successes as well as the failures, 
so that we can move our delivery into the 21st Century. This 
project, the new GI Bill, in terms of how we have approached 
it, we have changed how we are managing the project. We have 
changed how we are using technologies and we are doing that 
based upon the ability to look across the Department. What has 
worked? What has not worked? And then bring it all to bear.
    It has also allowed us to pull resources from across the 
Department to this program, which is in one part of the 
Veterans Benefit Administration. So again, we are able to draw 
upon all the resources, all of the knowledge, good and bad, to 
make sure that the projects we move out are a success.
    Chairman Akaka. Mr. Wilson my final question. You did 
mention about staff training and stated that staff for all of 
the GI Bill efforts is now on board, and has been fully 
trained. However, if your IT structure has not been put in 
place, if that happens, will additional training be necessary 
to meet the August 1 deadline?
    Mr. Wilson. The individuals are onboard. The training is 
still underway though. I just want to make sure I am clear on 
that. The individuals, the 530 individuals, are currently going 
through training. Would additional training be needed? The 
short answer to that is yes. The amount of additional training 
would depend on what part of the IT deliverables would not 
actually be delivered.
    We have contingency plans in place for those. Generally 
speaking, we would be replacing the lack of the IT deliverable 
with simpler IT solutions such as spreadsheets, things like 
that. So the training would be fairly minimal depending on what 
IT solution would not be delivered.
    Chairman Akaka. Thank you. Senator Burr.
    Senator Burr. Mr. Chairman, one last question.
    I want to go to Guard and Reservists for just a minute. 
Guard and Reservists with some degree of active duty service 
could qualify for up to four different educational benefits. 
Now I know we have an Education Call Center. Can you share with 
us, is there a consultation process that will take place with 
these Guard and 
Reservists to try to put them in the most appropriate education 

benefit?
    Mr. Wilson. There is a process. We have worked hard to make 
sure that our call center staff are up to speed on all of those 
issues. Obviously they were already up to speed on the previous 
programs that we have administered and we have sent our best 
people out to the call center to make sure that those 
individuals have the expertise on this program as well.
    Our approach on this is to make sure that we can help the 
veteran identify the questions that he or she should be asking 
before they make the determination on what the best benefit is 
for them. There could be things that we cannot fully account 
for; for instance, a veteran might have concerns about losing 
their job so they would want the additional 5 years to use the 
benefit under Post-9/11, understanding that to do so they would 
receive perhaps a lesser dollar amount of benefit. Those are 
the type of things that we want to make sure that they account 
for, but we cannot really answer those questions specifically 
for them.
    So, that is the approach that we are taking with our call 
center. That is the approach we are taking on our Web site as 
well. We have information on there that helps them answer the 
questions and apply their answers to the questions to several 
scenarios, case studies that we have on our Web site.
    Senator Burr. Great. I thank you, Mr. Chairman.
    Chairman Akaka. Thank you Senator Burr.
    I want to thank the first panel very much for your 
responses. This has been helpful to us. Thank you.
    Now I would like to introduce our second panel. First, I 
welcome the Director of the Office of Business Process 
Integration in VBA, Kim A. Graves. I also welcome Scott A. 
Gaydos, Application Services Executive at EDS. Thank you both 
for joining us today. Your full statements will appear in the 
record of the Committee.
    Ms. Graves, will you please begin.

   STATEMENT OF KIM A. GRAVES, DIRECTOR, OFFICE OF BUSINESS 
    PROCESS INTEGRATION, VETERANS BENEFITS ADMINISTRATION, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Ms. Graves. Good morning and thank you Mr. Chairman.
    Chairman Akaka. Good morning.
    Ms. Graves. Ranking Member Burr and Members of the 
Committee, it is a privilege to be here today to talk about the 
use of information technology to enhance compensation claims 
processing within the Veterans Benefits Administration. I will 
address the status of VETSNET and the Paperless Delivery of 
Veterans Benefits Initiative, as requested by the Committee.
    VETSNET, or the Veterans Services Network, is a suite of 
five inter-related software applications that support end-to-
end compensation and pension claims processing. VETSNET is 
intended to replace the C&P claims processing and benefit 
payment functions of the legacy Benefits Delivery Network or 
BDN.
    Over the past 3 years, significant progress has been made 
in achieving our goal of migrating the C&P functions from the 
BDN platform. In 2005, the Under Secretary for Benefits 
requested an independent technical assessment of the project to 
identify areas of concern which were inhibiting our ability to 
complete the final two components of the application suite.
    As a result of the assessment, the Under Secretary engaged 
MITRE Corporation to assist in the development and 
implementation of mitigation strategies. This action has 
resulted in significant progress in the delivery of benefits to 
Veterans. Today, 98 percent of all new compensation claims are 
processed through VETSNET and of the 2.7 million compensation 
records which existed on the BDN in 2006, we have converted all 
but 360,000 of those cases to the VETSNET platform.
    With the substantial progress made in moving VETSNET 
forward we are able to now turn our attention to migrating C&P 
claims processing into a paperless environment. We have 
successfully used imaging technology and computable data to 
support claims processing in our Insurance, Education, and Loan 
Guaranty programs for many years. Initial pilot efforts in our 
C&P business line have demonstrated the feasibility of using 
this type of technology for those benefit programs as well.
    Our current focus is the development of a comprehensive 
strategy to integrate the various in-progress initiatives, 
leveraging successes already accomplished. VBA is collaborating 
with the Office of Information and Technology in developing 
this strategy to ensure our mission needs are met and that the 
appropriate enterprise architecture is employed.
    At the core of our strategy is the implementation of a 
business model for C&P processing that is less reliant on the 
acquisition, storage, and movement of paper documents. Our 
comprehensive plan, the Paperless Delivery of Veterans Benefits 
Initiative, will employ a variety of enhanced technologies to 
support claims processing. VA contracted with Electronic Data 
Systems, or EDS, to serve as the lead systems integrator for 
this effort. The LSI effort is focused on the design of the 
technology solution which will support enhanced paperless 
claims processing opportunities across VA.
    To ensure we are addressing the transition to paperless 
processing in a comprehensive manner, we have taken steps to 
assess best practices from both government and industry. In 
January, we visited the Social Security Administration and 
received a demonstration of their paperless capabilities. SSA 
has been very helpful in sharing information about their 
business process and technology transformations. We also 
visited United Services Automobile Association Headquarters in 
San Antonio. USAA's use of today's technologies has helped to 
form our vision of how we need to serve and communicate with 
today's veterans.
    While the use of advanced technologies is critical to our 
service-delivery strategy, we must also address our business 
processes. To that end, VBA developed strategic partnerships 
with two recognized experts in organizational transformation. 
MITRE is actively providing strategic program management 
support to both VETSNET and the Paperless Initiative. Booz 
Allen-Hamilton has recently been engaged by VBA to provide 
business transformation services. Booz Allen will assist us in 
business process re-engineering, organizational change 
management, and related activities to ensure VBA is well 
positioned to take advantage of the technology solutions being 
developed.
    We are keenly aware that to merely apply new technology to 
existing business processes will likely not result in the 
desired end state.
    As another element of our comprehensive transformation 
strategy, we have designated the VA Regional Office in 
Providence, Rhode Island, to serve as our Business 
Transformation Lab. The lab will serve as the focal point for 
convergence of process re-engineering and technology, ensuring 
that service delivery is optimized and that best practices are 
developed and deployed throughout VBA.
    We recognize that while technology is not a panacea for our 
claims-processing concerns, it is, however, the hallmark of a 
forward thinking organization. Our paperless strategy combines 
a business-focused transformation and re-engineering effort 
with enhanced technologies, to provide an overarching vision 
for improving service delivery to our Nation's veterans.
    I assure you VA leadership is committed to implementation 
of the Paperless Initiative. We believe this goal is not only 
attainable, but it is imperative to ensure our clients, the 
Nation's veterans, are afforded the service they have deserved 
or that they have earned.
    Thank you for the opportunity to address these issues. This 
concludes my prepared testimony, Mr. Chairman and I would be 
happy to answer any questions you or the Committee Members 
might have after the next panelist. Thank you, sir.
    [The prepared statement of Ms. Graves follows:]
   Prepared Statement of Kim A. Graves, Director, Office of Business 
Process Integration, Veterans Benefits Administration, U.S. Department 
                          of Veterans Affairs
    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
It is a privilege to be here today to talk about the use of information 
technology to enhance compensation claims processing within the 
Veterans Benefits Administration (VBA). I will address the status of 
CAPRI, VETSNET, and the Paperless Delivery of Veterans Benefits 
Initiative, as requested by the Committee.
    CAPRI is the Compensation and Pension Record Interchange, which 
allows VBA users to access Veterans Health Administration (VHA) 
information. This function assists in a seamless share of relevant, but 
necessary information between the two systems. Functionality used by 
VBA personnel includes requesting medical examinations, obtaining 
examination results, review and retrieval of outpatient treatment 
records, and review and retrieval of information available through the 
Federal Health Information Exchange and bidirectional Health 
Information Exchange, or FHIE and BHIE, respectively. In addition, 
CAPRI provides the examination templates used by medical personnel in 
conducting and reporting the results of requested medical examinations. 
Over the past several years, much progress has been made in updating 
and enhancing the exam templates to facilitate their use in the 
disability examination and rating process. A number of other non-
template enhancements are pending completion, which will benefit VBA 
end users as they access these records across systems.
    To ensure that all CAPRI users' needs are met, a governance board 
was recently convened, consisting of VHA, VBA, the Office of 
Information & Technology (OI&T), and other interested stakeholders. The 
charge of this group of professionals is to review and prioritize 
enhancement requests and to champion the CAPRI project. Investment and 
governance of the CAPRI project are imperative, as CAPRI is a core 
Compensation and Pension business application, providing enhanced 
access to critical information required to render decisions on 
Veterans' claims.
    VETSNET, or the Veterans Services Network, is a suite of five 
inter-related software applications that support end-to-end 
compensation and pension claims processing. VETSNET is intended to 
replace the C&P claims processing and benefit payment functions of the 
legacy Benefits Delivery Network (BDN).
    Over the past three years, significant progress has been made in 
achieving our goal of migrating the C&P functions from the BDN 
platform. In 2005, the Under Secretary for Benefits requested an 
independent technical assessment of the project to identify areas of 
concern which were inhibiting our ability to complete the final two 
components of the application suite: Awards and the Finance and 
Accounting System (FAS). These two components provide benefit award 
generation (the payments to the Veteran), as well as payment and 
accounting interfaces.
    As a result of the assessment, the Under Secretary engaged MITRE 
Corporation to assist in the development and implementation of 
mitigation strategies, to include establishing a rigorous 
interdisciplinary governance process, and the development of a 
comprehensive schedule. This Integrated Master Schedule, for the first 
time, identified and scheduled all elements of the project necessary to 
transition compensation and pension claims processing capabilities from 
the legacy Benefits Delivery Network (BDN) to the more agile and 
responsive VETSNET corporate platform.
    This approach has resulted in significant progress in the delivery 
of benefits to Veterans. At the end of September 2006, a total of 
10,385 Veterans were receiving their monthly benefit payments via 
VETSNET. We have increased field usage of VETSNET to 98% of all new 
compensation claims. The remaining cases have potential dual 
entitlement to pension and should be transitioned in the next few 
months. Of 2.7 million compensation records existing on the BDN in 
2006, we have converted all but 360,000 to the VETSNET platform, and 
have plans in place to convert those remaining records within the next 
12 months.
    We are committed to the Secretary's charge of providing timely 
benefits to our Nation's Veterans and are expanding the number of 
pension and dependency and indemnity compensation claims processed in 
VETSNET. We anticipate VETSNET will be used to process three-quarters 
of all pension claims within the next year. We are working in parallel 
to convert the existing pension records from the BDN, and will be 
converting the first segment in May 2009.
    To date, we have attained quantifiable success in areas having the 
most significant impact on VBA end users. In addition, we delivered 
capability to address legislative mandates and changes in business 
processes. Significant accomplishments in this area include support for 
the Disability Evaluation System pilot program between VA and the 
Department of Defense, and regulatory changes related to the Veterans 
Claims Assistance Act of 2000. While we did not achieve every milestone 
established in the Integrated Master Schedule developed in 2006, we 
capitalized on our successes and also quickly made system modifications 
to deliver Filipino Veterans Equity Compensation payments and payments 
to Veterans under the American Recovery and Reinvestment Act of 2009. 
VBA looks forward to enhancing this flexibility, which is critical to 
VBA's organizational needs and will be very valuable in the future as 
we strive to create a 21st Century VA.
    VBA and OI&T continue to work collaboratively to address the small 
functional areas requiring completion. We believe we are on track to 
meet the goal of BDN replacement for the entire Compensation and 
Pension benefit program, including conversion of all records from the 
legacy system, within 24 months--approximately a full year before our 
initial projections.
    With the substantial progress made in moving VETSNET forward, we 
are able to turn our attention to migrating VBA compensation and 
pension claims processing to a paperless environment.
    VBA has made significant strides in the use of information 
technology to improve claims processing in all of our benefit programs. 
We have successfully used imaging technology and computable data to 
support claims processing in our Insurance, Education, and Loan 
Guaranty programs for many years. Initial pilot efforts in our 
Compensation and Pension business line demonstrated the feasibility of 
using this type of technology for these benefit programs as well.
    Our current focus is the development of a comprehensive strategy to 
integrate the various in-progress initiatives, leveraging successes 
already accomplished. VBA is collaborating with the OI&T in developing 
this strategy to ensure our mission needs are met and that the 
appropriate enterprise architecture is employed.
    At the core of our strategy is the implementation of a business 
model for Compensation and Pension processing that is less reliant on 
the acquisition and storage of paper documents. Our comprehensive plan, 
the Paperless Delivery of Veterans Benefits Initiative, is envisioned 
to employ a variety of enhanced technologies to support end-to-end 
claims processing.
    In addition to imaging and computable data, we will incorporate 
enhanced electronic workflow capabilities, enterprise content and 
correspondence management services, and integration with our modernized 
payment system. We are also exploring the utility of business-rules-
engine software both for workflow management and to potentially support 
improved decisionmaking by claims processing personnel. This is also 
known as rules based automated claims processing, and where 
appropriate, we will embrace this technology to deliver compensation to 
the Veteran as quickly as possible.
    VA contracted with Electronic Data Systems (EDS) to serve as the 
lead systems integrator (LSI) for this effort. Fiscal year 2010 is our 
target year for release of the initial hardware and software in support 
of the large-scale expansion of the Paperless Initiative. The LSI 
effort is focused on the design of the technology solution which will 
support enhanced paperless claims processing capabilities across VA. By 
committing to a paperless system, we will improve the efficiency and 
speed of claims processing.
    To ensure we are addressing the transition to paperless processing 
in a comprehensive manner, we have taken steps to assess best practices 
in paperless processing from both government and industry. On January 
14 and 23, 2009, we visited the Social Security Administration (SSA) 
and received a demonstration of their paperless processing 
capabilities. SSA has been very helpful in sharing information about 
their business process and technology transformation. We also visited 
United Services Automobile Association (USAA) Headquarters in San 
Antonio. USAA's use of today's technologies has helped to form our 
vision of how we need to serve and communicate with today's Veterans.
    While the use of advanced technologies is critical to our service-
delivery strategy, we must also address our business processes. To that 
end, VBA developed strategic partnerships with two recognized experts 
in the field of organizational transformation. MITRE Corporation, a 
manager of federally Funded Research and Development Centers, has been 
supporting VBA on the VETSNET project since 2006. MITRE is now actively 
providing strategic program management support, as well as support for 
the overall Paperless Initiative, addressing multiple areas of focus. 
Booz Allen-Hamilton has recently been engaged by VBA to provide 
business transformation services. Booz Allen will assist VBA in 
business process re-engineering, organizational change management, 
workforce planning and organizational learning strategies to ensure 
that VBA is well positioned to take best advantage of the technology 
solutions being developed. We are keenly aware that to merely apply new 
technology to existing business processes will likely not result in the 
desired end state.
    As another element of our comprehensive transformation strategy, 
VBA designated the VA Regional Office in Providence, Rhode Island, to 
serve as our Business Transformation Lab. The Business Transformation 
Lab will serve as the focal point for convergence of process re-
engineering and technology, assuring that service delivery is optimized 
and best practices are developed and deployed throughout VBA.
    We recognize that while technology is not a panacea for our claims-
processing concerns, it is, however, the hallmark of a forward looking 
organization. Our paperless strategy combines a business-focused 
transformation and re-engineering effort with enhanced technologies, to 
provide an overarching vision for improving service delivery to our 
Nation's Veterans.
    I assure you VA leadership is committed to implementation of the 
Paperless Initiative. We believe this goal is not only attainable, but 
is imperative to ensure our clients, the Nation's Veterans, are 
afforded the service they have earned. Thank you for the opportunity to 
address these important issues.

    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or the Committee Members may have.

    Chairman Akaka. Thank you very much for your testimony Ms. 
Graves.
    Mr. Gaydos.

          STATEMENT OF SCOTT A. GAYDOS, APPLICATIONS 
             SERVICES EXECUTIVE, EDS, AN HP COMPANY

    Mr. Gaydos. Mr. Chairman, Senator Burr, Members of the 
Committee, thank you for the opportunity to discuss EDS' role 
in the U.S. Department of Veterans Affairs Paperless Delivery 
of Benefits Initiative. EDS is pleased to support our Nation's 
veterans and is committed to success for the overall 
initiative.
    We are proud of our contributions, specifically working 
side-by-side with VA since 1997 to evolve the Veterans Health 
Information Systems and Technology Architecture, or VistA, into 
one of the world's premier electronic health records. As we 
partner again with VA, this time to improve the benefits claims 
process, we strive to facilitate the successful design, 
acquisition, and implementation of enabling information 
technology within a transformed business process. VA required 
an industry partner to help guide the overall technical aspects 
of the program focused on objective, quantifiable, and 
measurable positive results. This role, known as the Lead 
Systems Integrator Contractor, or LSIC, is being fulfilled by 
EDS, an HP company.
    As the LSIC for the Paperless Initiative, EDS is assisting 
VA in defining the overall system solution, developing 
functional requirements, and defining systems architecture.
    To reduce the risk our contract is performance-based and 
payments are tied to deliverables.
    As system components are developed, the LSIC will assist in 
installing and integrating components into the solution, as 
well as testing, operating, maintaining, and transitioning the 
solution to the Government. In developing the overall program, 
the LSIC will be separating the system construction into 
incremental release packages that focus on services provided to 
the veteran. These release packages will be developed by a 
separate Application Developer Contractor, or ADC.
    After the government selects an ADC, the LSIC's primary 
role will be to provide systems engineering support throughout 
the development of the program. At the start of the LSIC 
contract in 2008, EDS immediately began working closely with 
VBA and VA OI&T offices. Focus groups have been formed within 
each VBA Line of Business and EDS has worked closely with these 
groups to understand how each Line of Business interacts.
    Together, EDS and VA have identified business value drivers 
and critical success factors, assessed the ``as-is'' enterprise 
situation, documented business requirements, and are currently 
forming the vision of the anticipated enterprise architecture.
    These efforts will help guide the program to a design and 
transformation strategy that will be sequenced into an 
integrated delivery blueprint. The establishment of sequencing 
will be focused on the benefit to veterans, and on the 
measurable and demonstrable improvement of service using state-
of-the-art paperless technologies implemented within a service-
oriented architecture.
    Current technology components envisioned for the future 
architecture include: a Veteran Facing Web Portal, enabling 
veterans and veterans' representatives to conduct benefits 
activities via the Internet; an Internal Facing Web Portal, 
enabling VBA employees to process benefits through electronic 
access to necessary information for claims processing; 
Enterprise Content Management that provide a reliable, cost-
effective, computer-based utility and the necessary network 
services for managing the extremely large numbers of electronic 
images anticipated; a Correspondence Processing component that 
provides a simple, accessible, computer-based utility for 
creating and managing form letters and generating output 
fulfillment packages; and Workflow and Rule-Based Decision 
Support components that enable configuration and change of the 
rules-driven processes in the portals and their associated 
utilities and enabling the routing of workload within Regional 
Offices and across geographic regions.
    The sequencing of the program is currently envisioned in 
multiple, agile, iterative, and incremental stages. Early 
stages will focus on establishing the necessary foundation and 
infrastructure to support the solutions deployed to Regional 
Offices. We're including plans for an enterprise solution to 
capture paper as electronic images and developming a Veteran 
Facing Portal enabling veterans to check the status of a claim 
and eventually submit a claim with electronic supporting 
documentation.
    EDS will coordinate with the business and technology 
organizations to identify the timing of when new releases will 
be implemented to facilitate a smooth, well-managed 
transformation.
    EDS is working with other Government partners to ensure 
that the work of the LSIC incorporates existing Government 
investment. For example, as Ms. Graves mentioned EDS, Booz 
Allen Hamilton, and MITRE recently accompanied VA personnel on 
a site visit to the Providence, Rhode Island Regional Office, 
which has been selected as VA's Business Transformation Lab. 
The improvement in claims processing times enabled by best 
practices under development at this lab will provide valuable 
design recommendations into the overall Paperless Initiative.
    EDS is proud to be part of a key initiative that will 
enrich the services provided to veterans and assist in the 
transformation of VA into a 21st Century organization. We are 
committed to the success of the overall initiative and look 
forward to continued partnership with VA to enable positive 
claims processing reform.
    Thank you Mr. Chairman. I would be happy to answer any 
questions you or Members of the Committee may have.
    [The prepared statement of Mr. Gaydos follows:]
          Prepared Statement of Scott A. Gaydos, Applications 
                 Services Executive, EDS, An HP Company
    Mr. Chairman, Senator Burr, Distinguished Members of the Committee, 
Thank you for the opportunity to discuss EDS' role in the U.S. 
Department of Veterans Affairs (VA) Paperless Delivery of Veterans 
Benefits Initiative. EDS is pleased to support our Nation's Veterans 
and is committed to success for the overall initiative. My name is 
Scott Gaydos, and I am the Applications Services Executive for the 
Veterans Affairs/Military Health program at EDS, an HP Company. My 
company has a portfolio that spans printing, personal computing, 
software, services and IT infrastructure and is among the world's 
largest IT companies. Hewlett-Packard Company (HP) focuses on 
simplifying technology experiences for all of its customers, which 
range from individual consumers to the largest businesses to the 
Federal Government.
    We are proud of our contributions, specifically working side-by-
side with VA since 1997 to evolve the Veterans Health Information 
Systems and Technology Architecture (VistA) into one of the world's 
premier electronic health records. As we partner again with VA, this 
time to improve the benefits claims process, we strive to facilitate 
the successful design, acquisition, and implementation of enabling 
information technology within a transformed business process that is 
sequenced for maximum benefit to Veterans. VA required an industry 
partner to help guide the overall technical aspects of the program 
focused on objective, quantifiable, and measurable positive results. 
This role, labeled the Lead Systems Integrator Contractor (LSIC), is 
being fulfilled by EDS, an HP company.
                            role of the lsic
    As the LSIC for the Paperless Delivery of Veterans Benefits 
Initiative, EDS is assisting VA in defining the overall system 
solution, developing functional requirements, developing Program Office 
planning and guidance, and defining systems architecture. As system 
components are developed, the LSIC will assist in installing and 
integrating components into the solution, as well as testing, 
operating, maintaining, and transitioning the system solution to the 
Government. In developing the overall program and end-state solution, 
the LSIC will be separating the solution construction into incremental 
release packages that focus on services provided to the Veteran. These 
release packages will be developed by a separate Application Developer 
Contractor (ADC). After Government selection of the ADC, the LSIC's 
primary role will be to provide systems engineering support throughout 
the system development life cycle of the program. At the conclusion of 
each release cycle, the LSIC will receive release packages from the 
ADC, integrate them into the overall solution architecture, and test 
the packages. A third company, the Independent Verification and 
Validation (IV&V) contractor will perform independent assessment of the 
release and the LSIC will then work with the Government to support the 
deployment of each iterative release. Steady-state operations and 
maintenance services will be furnished by the Government.
                        accomplishments to date
    EDS understands that the goal of VA's strategic plans is to enhance 
the delivery of benefits to our Nation's Veterans and their 
beneficiaries. Achieving VA's measurable goals, such as improving 
claims processing times, increasing accuracy through technology, and 
enhancing business processes to accelerate the overall claims workflow, 
requires large-scale business process and technology transformation.
    At the start of the LSIC contract in October 2008, EDS immediately 
began working closely with the Veterans' Benefits Administration (VBA) 
and VA's Office of Information and Technology (OI&T) to prepare program 
office guidance, elicit and validate requirements, and initiated a 
well-founded, integrated set of suggested improvements that will feed 
into a roadmap for success. Focus groups have been formed with each VBA 
Line of Business toward this ultimate goal. EDS has worked closely with 
these focus groups to understand the detailed mechanisms of each Line 
of Business and how they interact.
    EDS and VA have worked through the initial phases of discovery, 
enterprise analysis, and technical opportunity analysis in order to 
assess and align the current ``as-is'' environment with the business 
requirements and potential technical solutions. Together, we have 
identified business value drivers and critical success factors, 
assessed the ``as-is'' enterprise situation, documented business 
requirements, and are currently forming the vision of the anticipated 
enterprise architecture. These efforts will help guide the program to a 
design and transformation strategy that will be sequenced into an 
integrated delivery blueprint. The establishment of sequencing will be 
focused on the benefit to Veterans, and on the measurable and 
demonstrable improvement of service using state-of-the-art technologies 
in areas such as high-speed scanning, enterprise content/image 
management, correspondence management, rules-based workflow and 
decisions support, and creating a secure Veteran-focused web portal 
built over a service-oriented architecture (SOA). The transformation 
strategy will include sequencing tactical short-term projects while 
laying groundwork for strategic long-term projects in order to 
demonstrate measurable progress. This Paperless Initiative delivery 
blueprint will also integrate with existing infrastructure and ongoing 
parallel efforts in the portfolio of VA projects to reach the desired 
end-state.
                     planned technology components
    State-of-the-art technologies are required to assist in reducing 
the inefficiencies in the claims process resulting from the handling 
and movement of large volumes of paper. Current technology components 
envisioned for the future architecture 
include:

    Veteran Facing Portal--enables Veterans and Veterans' 
representatives to conduct benefits activities via the Internet.
    Internal Facing Portal--enables VBA employees to process benefits 
through electronic access to necessary information (e.g., electronic 
images, or electronic data) for claims processing.
    Enterprise Content Management (ECM)--provides a reliable, cost-
effective, computer-based utility and the necessary network services 
for managing the extremely large numbers of electronic images to be 
captured and accessed anywhere they are needed.
    Correspondence Processing--provides a simple, accessible, computer-
based utility for creating and managing form letters and generating 
output fulfillment packages.
    Workflow and Rule-Based Decision Support--enables configuration and 
change of rules-driven processes in the portals and their utilities 
throughout their lifetime. Workflow capabilities allow for the routing 
of workload within Regional Offices and across geographic regions.
    SOA, ESB, and Data Integration--SOA standards enable integration 
within the mission of VBA as well as federation with other Governmental 
entities and with private facilities. The Enterprise Service Bus (ESB) 
provides management services for SOA where needed, particularly for 
federation. These and other technologies support Data Integration to a 
level not previously feasible.
                            sequencing plan
    The sequencing of the program is currently envisioned in multiple, 
iterative, and incremental stages. Early stages will focus on 
establishing the necessary foundation and infrastructure to support the 
solutions deployed to Regional Offices and throughout the organization 
to manage and support large numbers of electronic images to be 
captured, transferred, and accessed anywhere as they are needed. Early 
stages also include plans for an enterprise solution to capture paper 
as electronic images, significantly increasing control, speed, and 
flexibility. A Veteran Facing Portal will also be implemented to enable 
Veterans to check the status of a claim and eventually to submit a 
claim with electronic supporting documentation. Future stages will 
combine other elements of the technology solution, including the 
capture of all information as data for maximum reliability and 
consistency and for VA employees to access Veteran claim information at 
any location to assist in processing claims.
    EDS will coordinate with the business and technology organizations 
to identify the timing of when new releases will be implemented to 
facilitate a smooth, well-managed transformation. As the LSIC, EDS will 
work closely with VA to identify capable developer contractors who will 
use agile methodologies to execute on the architectural blueprint and 
sequence plans.
                  incorporating existing va investment
    EDS is working with other Government partners to ensure that the 
work of the LSIC incorporates existing Government investment. For 
example, EDS, Booz Allen Hamilton, and MITRE recently accompanied VA 
personnel on a site visit to the Providence, RI Regional Office, which 
has been selected as VA's Business Transformation Lab. The improvement 
in claims processing times enabled by best practices under development 
at this lab will provide valuable design recommendations into the 
overall Paperless Delivery of Veterans Benefits Initiative. EDS will 
continue to work closely with Booz Allen Hamilton to identify the 
strategy and timing of rolling changes into the organization so that we 
will be able to leverage their knowledge and recommendations to VA. 
Additionally, MITRE's deep involvement with VBA is proving valuable to 
understand and execute the LSIC contract in order to provide the most 
value to the business.
                                closing
    EDS is proud to be part of a key initiative that will enrich the 
services provided to Veterans and assist in the transformation of VA 
into a 21st century organization. We are committed to the success of 
the overall initiative and look forward to continued partnership with 
VA to enable positive claims processing reform.

    Chairman Akaka. Thank you very much Mr. Gaydos.
    Ms. Graves what effect has centralization of IT functions 
to VA's CIO had on the developing IT solutions for improving 
the claims process?
    Ms. Graves. One of the benefits of the centralization 
process has been that we have established governance processes 
and procedures to enable and facilitate good communication 
between the mission owners and the information technology folks 
who are charged with delivering the tools that we need to 
deliver the benefits and services.
    I think that the processes and procedures that have been 
put into place and the structure that has been added around it 
has supported our ability to develop good, solid business 
requirements, and have open dialog throughout the development 
process. As Mr. Warren noted in his testimony, working very 
closely together with the mission owners and the IT community 
ensures that we deliver benefits and services and deliver the 
technology solutions along the way, that we are constantly 
checking to make sure that what we are delivering or what we 
are developing is the right solution.
    So, I believe that the very effective communication and 
continued collaboration is very important and has been a 
benefit of the centralization.
    Chairman Akaka. Mr. Gaydos, in the past there have been 
difficulties with VA writing contracts that clearly spell out 
the requirements and results that can be measured. And as we 
look at things that we have to do under contracting, we need to 
pay more attention to the specifics. Now this was a major part 
of the problem with the now infamous Core FLS costing taxpayers 
nearly $300 million.
    My question to you is what role will EDS play in developing 
VA's contracts for the Paperless Initiative?
    Mr. Gaydos. Thank you Mr. Chairman. As the Lead System 
Integrator for the Paperless Initiative, EDS is assisting the 
VA in the development of what are known as the Technical Data 
Packages. Those packages ultimately form the business 
requirement, the business benefit, the technological components 
necessary to be rolled out in an incremental fashion.
    We are helping the VA in really assessing what the actual 
acceptance criteria should be for each of these packages so 
that one, as Mr. Warren testified earlier on the Chapter 33 
program, the same approach is being used here where as 
application components are developed they will be developed in 
small chunks, released out to the field, and evaluated for 
acceptance. That way that you do not have to wait years and 
years and years as was the case with Core FLS--flip the switch 
and hope that everything goes OK. The intention here is quite 
different in that it is an evolutionary, incremental, and 
iterative process; thereby mitigating a lot of the risk that is 
associated with major programs such as this.
    So, we are assisting in the development of those Technical 
Data Packages to help measure the business value that is going 
to be delivered by each component piece.
    Chairman Akaka. Thank you.
    Ms. Graves, on contract specifications what has VBA done to 
clearly state its goals and expectations for EDS as a lead on 
this Paperless Initiative?
    Ms. Graves. Thank you Mr. Chairman. VBA and OI&T are 
working very closely with EDS to ensure that they understand 
our goals for the project. As we were developing the Statement 
of Work or the Statement of Objectives to contract for this 
effort, we also had independent support from the MITRE 
Corporation to help us very clearly delineate the goals and 
objectives for the contract effort. We plan to continue to have 
this type of very collaborative process as acquisition packages 
are developed so that we are clearly stating the goals and 
objectives of those acquisitions. And again, working closely 
with EDS on a day-to-day basis we are continually communicating 
and checking and making sure that we are all moving forward 
together on the same page, to make sure that what is being 
developed is what we need to better serve our Nation's 
veterans.
    Chairman Akaka. Senator Burr.
    Senator Burr. Thank you Mr. Chairman. Ms. Graves, much of 
your testimony is focused on the technical aspect of 
integrating the IT solutions into the delivery of the VA 
benefits. At the end of the day, share with me what you think 
that transition means to our Nation's veterans and their 
families.
    Ms. Graves. Thank you, sir. Ultimately, anything that we 
do, whether it is related to Information Technology or changing 
the business process, is focused on how we can best serve our 
Nation's veterans. As a veteran myself, I take it very 
seriously and am very honored to be able to be a part of this 
effort.
    I believe the current effort, the Paperless Initiative, has 
promise to really take us to the next level in our claims 
process. We see it in industry and we recognize that some of 
the issues that we have in our claims process are largely the 
result of just acquiring and managing those large volumes of 
paper. We believe this will help us streamline some of those 
areas, gain efficiencies in those areas, and help us move 
forward to ensure that we are delivering the benefits and 
services.
    Senator Burr. And I would take for granted from the 
standpoint of the veterans and their families it is a more 
timely response. It is a more accurate response. That is the 
goal.
    Ms. Graves. Certainly, sir. I think one of the clear 
examples is in the evidentiary gathering in a claims process. 
One of the things that can happen are pieces of information are 
coming in at different times. When those pieces of information 
come in, we have to manually go associate those with the claims 
file to ensure that the decisionmaker has all of the 
information in front of them when they are ready to make that 
decision.
    If all of those things do not happen at the right time, it 
is possible that the decisionmaker will not have the full 
evidentiary package. So, an incomplete decision may be made and 
then when we get that next piece of information associated with 
the claim, we must review the decision again. Certainly that 
takes away from processing the next claim.
    Senator Burr. So, is it safe to say yeah, this is a lot 
about technology, but this is a lot about redesigning the way 
we process a claim within the Department of Veterans Affairs?
    Ms. Graves. Certainly the business process re-engineering 
aspect is crucial to this effort. Again, as I stated in my 
testimony we recognize that just applying technology to all of 
our current processes will likely not result in the type of 
service improvements that we want to see. By the same token 
there are things that the technology will allow us to do that 
are just not possible when you are dealing with large volumes 
of paper.
    Senator Burr. Scott, as a consultant on this project, when 
fully implemented how much of a problem do you estimate we will 
still have that is cultural?
    Mr. Gaydos. Thank you Senator Burr. One of the keys to 
overcoming any cultural issue when you are going through 
large--both business and technology--transformations such as 
this program, one of the keys to success in doing that, though, 
is doing it in an incremental fashion. So, as functionality 
rolls out the door and as business transformation takes place 
in an incremental and iterative fashion, that allows the 
culture to evolve along with the solution. So it is not a big 
bang, and please change your culture tomorrow when we turn 
everything on. That is very difficult to do and very traumatic 
to organizations going through cultural change. So the simple 
fact that the program itself is expected to be an evolutionary 
program allows the cultural change to evolve along with the 
change in the program as well.
    Senator Burr. I would take for granted that one of the 
goals of this entire process is the ability, at the end of the 
day, to look at a particular reviewer to accurately know what 
the process time is of a claim, to begin to establish some type 
of baseline so that we can then look at whether productivity 
can be improved. Am I correct at making that assumption?
    Mr. Gaydos. Yes, Senator. In fact, as you stated in your 
opening statement around the use of your BlackBerry and other 
components to say how well are you actually doing--are people 
performing the work that they are supposed to be performing? 
The workload components that are part of this initiative, as 
well, allow for the ability to do just that. What regional 
offices are performing better than other regional offices? And 
then for the electronic ability to quite literally shift work 
from one regional office to another to allow comparisons 
between these offices, and really add some cultural pressure as 
well to help the underperforming offices come up to speed with 
where the others are is expected.
    Senator Burr. But Scott, for any company going through this 
massive of a transition--transformation let us say--the 
expectation would be or the result would be and the expectation 
of that goal would be that the productivity per employee 
involved would change dramatically. Is that right?
    Mr. Gaydos. It should. You are right Senator. Over time as 
the new processes are understood, both in the business 
transformation as well as the technology transformation, 
productivity should increase really resulting in that visible, 
demonstrable benefit to the veteran who is trying to navigate 
through this process.
    Senator Burr. OK. Ms. Graves, over the years VA has tried 
to improve the delivery of benefits for our veterans. For 
example, over the decade that VA has been transitioning from 
Benefits Delivery Network to the more modern payment system 
VETSNET. What lessons has the VA learned from these endeavors 
that are being applied to the current initiatives to help 
smooth this transition to a Paperless Delivery System?
    Ms. Graves. Senator, I hope that we have done a good job of 
learning lessons from these past efforts. Certainly having 
spent the last 3 years very focused on getting us over the 
finish line in VETSNET, I have been on the front lines of 
learning those lessons. I believe in the strategy that we have 
undertaken: establishing the governance process with the Office 
of Information Technology; having a business focus to this 
effort; ensuring that we have developed and declared or are 
developing and declaring demonstrable milestones, clear 
schedules, clear performance metrics that we hope to obtain 
through the effort; and a constant and a consistent team 
working on this project.
    In the past we have had efforts, including VETSNET--on the 
business side of the house is specifically where I can speak--
we have had folks who have ancillary duties. They were working 
on VETSNET, but have other things that they may be responsible 
for doing. To the extent possible we have tried to minimize 
that. My office was established in VBA really for the major 
purpose of having business oversight and coordination, 
responsibility for the Paperless Initiative.
    We believe that is a significant lesson that was learned 
through the VETSNET process and establishing my office was done 
by the Under Secretary for Benefits recognizing the importance 
of having a focal point and people who are dedicated to moving 
this process forward.
    I think one of the other lessons that we have learned is 
demonstrated by our engagement with Booz Allen Hamilton. Your 
last questions discussed organizational transformation or 
cultural change, and certainly one of the things that we have 
specifically contracted with Booz Allen for is to assist us, 
not only in the business process re-engineering, but in the 
cultural transformation ensuring that we have looked at these 
things, not just the systems level and the process level, but 
also at the people level to ensure that our people are ready 
for this, that we are making incremental progress. That we have 
established appropriate performance metrics so that our people 
can be measured effectively with the new systems and 
technologies and so that we are prepared to make adjustments 
and re-vector as necessary to make continuous 
improvement.
    Senator Burr. The Chairman has been very kind to me. Let me 
just ask one last question, if I can.
    Chairman Akaka. Sure.
    Senator Burr. Are there any specific statutory impediments 
that stand in the way of further improvement; and if so, what 
are they? 
Or will you share them with us later if you want to think about 
it?
    Ms. Graves. I would certainly take that back to get the 
real policy experts to answer that question. But I can tell you 
one of the things that has recently been done. The Director of 
the C&P Service, Mr. Brad Mayes, has established a cross-
functional, chartered work team specifically for the purpose of 
going through the regulations, the statutes, policies, and 
procedures to ensure that we have looked at everything that we 
need to look at as we transform into this paperless 
environment. To ensure that we don't get too far down the path 
and find that we have a procedural or a regulatory stumbling 
block that we might need to come back and get some assistance 
with.
    So, that is one step that we are taking, but with respect 
to anything specific I can certainly take that back for the 
record sir.
    Senator Burr. Well, I want to thank both of you for your 
testimony and for the last panel and leave you with this 
reminder. That I think government becomes increasingly more 
insulated from its customers. Agencies know that they are 
designed to execute a specific function. And the one unique 
thing that is different between the Federal Government and 
private businesses is that private business not only recognizes 
their customers, they listen to their customers. And, even 
though we are going through this huge transformation to process 
things that are brought to the agency, never forget that you've 
got to listen to your customers, and that is not limited to the 
focus groups and outreach sessions that you do.
    If you really want to get some idea of what veterans think 
of the VA, then try to get in chat rooms where veterans talk to 
veterans about the VA. Try to go in where they communicate, 
because that will give you a great understanding of the 
challenges that we still have to overcome, but more 
importantly, their impression of what this agency is. And I 
think it will point you in directions of things we have yet to 
think about that are not structural changes, but they are 
certainly cultural things that we might have the opportunity to 
change as we are going through a very transformational period. 
I thank you.
    Chairman Akaka. Thank you very much Senator Burr. Tell me 
if you have further questions.
    Senator Burr. None.
    Chairman Akaka. Let me ask Ms. Graves this. I am concerned 
about VETSNET's role in the claims process. I understand that 
currently Rating Specialists literally have to deal with a 
combination of paper records and multiple computer screens.
    I saw this firsthand at Chicago's Regional Office and it 
seems like an inefficient system to me and I am looking for 
improvements in that. Will you please comment on that?
    Ms. Graves. Certainly, sir. Thank you.
    With respect to VETSNET specifically, it is a suite of five 
inter-related applications and throughout the claims process 
individual claims processing personnel may very well indeed 
have to toggle between one or more of the applications to get 
to a particular piece of information or to complete a specific 
action. We also have applications that are outside of the 
VETSNET suite that our claims processing personnel must access. 
CAPRI, for example, where they access information from the 
Veterans Health Administration, is a separate system.
    So, we recognize that it can be a cumbersome process for 
our claims processing personnel. And certainly, we believe that 
in the work that EDS is doing--taking a landscape view--they 
will help us identify areas where we may be able to put a new 
face on some of those very good and very powerful tools, and 
perhaps make them more easy to use for the claims processing 
personnel.
    We do, with respect to VETSNET specifically, we do 
continuously evaluate ways that we can improve the 
interoperability of the suite of applications. And as we find 
those where we believe we can make improvements, we evaluate 
and prioritize those with the other application changes we 
need. And we will certainly go back and continue to look at 
that to ensure we are doing everything that we can to make it a 
smoother process.
    Chairman Akaka. Thank you for that response. We certainly 
are looking forward to a time when we can improve these 
systems. 
Let me ask my last question to Mr. Gaydos. As the Lead Systems 
Integrator, what difference do you think the Paperless 
Initiative can make in improving the timeliness and accuracy of 
claims 
processing?
    Mr. Gaydos. Thank you Mr. Chairman. I think that the key to 
that is, in fact, the measurement of the success of the 
program. So, when we look at things like what the VA and VBA 
have been coming up with, which is those key business values 
and those key performance measures, if not measured by how much 
did this particular implementation of new business process and 
technology, for instance, cut the claims development time by X 
days? That is the appropriate business value that is applied to 
each release over time.
    So the overall impact absolutely, unequivocally must 
demonstrably improve that business process overall. And at the 
end of the day make a visible impact for the veteran going 
through the process to say, I can get through this process 
quicker than I did last time I tried to go through. So, it is 
absolutely imperative.
    Chairman Akaka. Well, thank you for that. I think that is a 
good note to end this hearing on. I really appreciate your 
responses.
    In closing, again, I want to thank all of our witnesses. 
Your testimony has given us a better understanding of how our 
Information Technology is being used for VA to improve on the 
delivery of benefits, especially for the delivery of the new 
Post-9/11 GI Bill. It is good to hear what you are doing to 
meet the deadline and I want you to know that we are supporting 
you as much as we can and we want to bring this about for the 
benefit of our veterans and that is why we exist.
    So thank you very much again, this hearing is now 
adjourned.
    [Whereupon, at 11:05 a.m., the Committee was adjourned.]
      

                                  <all>

</pre></body></html>
